IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 19-897
MATTHEW T. ALBENCE, ET AL., PETITIONERS
v.
MARIA ANGELICA GUZMAN CHAVEZ, ET AL.
_______________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
_______________
MOTION OF PETITIONERS FOR
LEAVE TO DISPENSE WITH
PREPARATION OF A JOINT APPENDIX
_______________
Pursuant to Rule 26.8 of the Rules of this Court, the Acting
Solicitor General, on behalf of petitioners, respectfully seeks
leave to dispense with the requirement of a joint appendix in this
case. The question presented in this case is whether the detention
of an alien who is subject to a reinstated removal order and who
is pursuing withholding or deferral of removal is governed by
8 U.S.C. 1231, or instead by 8 U.S.C. 1226.

The opinions of the

court of appeals and district court are included in the appendix
to the petition for a writ of certiorari.

In our view, no other

2
portion of the record merits special attention such as would
warrant the preparation and expense of a joint appendix, and
preparation of a joint appendix would not materially assist the
Court’s consideration of this case.

We are authorized to state

that counsel for respondents agrees that a joint appendix is not
necessary.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record

AUGUST 2020

